INFORMATION
SECURITY

Evaluation of GAO’s
Program and
Practices for Fiscal
Year 2012




                OIG-13-2
           Office of the Inspector General
       U.S. Government Accountability Office
                  Report Highlights

February 2013


INFORMATION SECURITY
Evaluation of GAO’s Program and Practices for Fiscal
Year 2012
What We Found
The Federal Information Security Management Act of 2002 (FISMA)
requires that each federal agency establish an agency-wide information
security management program for the information and information
systems that support the agency’s operations and assets. GAO is not
obligated by law to comply with FISMA or Executive Branch information
policies, but has adopted them to help ensure physical and information
system security. Our prior year evaluations have shown that GAO has
established an overall information security program that is generally
consistent with the requirements of FISMA, OMB implementing guidance,
and standards and guidance issued by the National Institute of Standards
and Technology. For example, GAO has well defined operational and
technical controls for remote access to its network. Its telecommunications
policy requires users to sign rules of behavior and user agreements that
acknowledge their responsibility and accountability. GAO also has a
process for reporting and disabling lost or stolen devices to prevent
unauthorized access. In addition, GAO has continued its focus on closing
prior year security-related recommendations.
Our fiscal year 2012 limited evaluation reinforced our prior conclusion.
However, using 18 new FISMA reporting metrics for federal inspectors
general, we identified areas for improvement in the contingency planning
process. We also identified resource challenges that affect GAO’s ability
to implement security upgrades and strategies identified by GAO
managers and the OIG.


What We Recommend
To help strengthen GAO’s overall information security program, we
recommend that the Chief Information Officer take the following two
actions: (1) implement measures to increase the redundancy and
availability of GAO mission-essential applications and (2) develop and
provide, for GAO senior management consideration, a proposed strategy
to ensure power redundancy to GAO servers and provide a long-term
alternate power supply in the event of a power outage. GAO concurred
with our recommendations.




                                                OIG-13-2 Information Security
                                               United States Government Accountability Office



Memorandum
Date:        February 13, 2013

To:          Comptroller General Gene L. Dodaro

From:        Inspector General Adam Trzeciak

Subject:     Information Security: Evaluation of GAO’s Program and Practices for
             Fiscal Year 2012

We have completed a limited-scope, independent evaluation of the effectiveness of
GAO’s information security program and practices for fiscal year 2012 as prescribed
by the Federal Information Security Management Act of 2002 (FISMA).1 FISMA
requires federal agencies to develop, document, and implement an agency-wide
information security program to provide security for the information and information
systems that support their operations and assets, including those provided or
managed by another agency, contractor, or other source. In addition, each agency is
required to have an annual independent evaluation of its information security
program and practices, including control testing and compliance assessment, which
is to be performed by the agency Inspector General (IG) or by an independent
external auditor. GAO is not obligated by law to comply with FISMA or executive
branch information policies, but has adopted them to help ensure physical and
information system security.

Our prior year evaluations have shown that GAO has established an overall
information security program that is generally consistent with the requirements of
FISMA, OMB implementing guidance, and standards and guidance issued by the
National Institute of Standards and Technology (NIST).2 Our fiscal year 2012 limited
review reinforced our prior conclusion, although this year, we identified areas for
improvement in the contingency planning process. We also identified resource
challenges that impact GAO’s ability to implement security upgrades and strategies
identified by GAO managers and the OIG. This report includes recommendations to
help the agency more fully implement federal information security requirements for
these program elements.




1
 Enacted as Title III of the E-Government Act of 2002, Pub. L. No. 107-347, 116 Stat. 2899, 2946
(Dec. 17, 2002).
2
 GAO/OIG, Information Security: Evaluation of GAO’s Program and Practices for Fiscal Year 2010,
GAO/OIG-11-3 (Washington, D.C.: Mar. 4, 2011).; and Information Security: Evaluation of GAO’s
Program and Practices for Fiscal Year 2011, GAO/OIG-12-2 (Washington, D.C.: Mar. 30, 2012).




                                                   OIG-13-2 Information Security
Objectives, Scope, and Methodology

For fiscal year 2012, we performed a limited FISMA evaluation of GAO’s information
security program and practices. Specifically, we assessed GAO’s compliance with
the 18 new FISMA metrics for fiscal year 2012 developed by the Department of
Homeland Security (DHS) for reporting by executive agency Inspectors General, 3
rather than the complete list of DHS metrics as in prior years. These metrics
established minimum and target levels of performance for administration priorities
and metrics for other key performance areas that were designed to focus federal
agency efforts on network security. Our review included the following eight
information security areas: Configuration Management, Identity and Access
Management, Incident Response and Reporting, Risk Management, Security
Training, Plan of Action and Milestones (POA&M), Remote Access Management,
and Contingency Planning. (See attachment I.)

We also evaluated changes to GAO systems, policies, and procedures in fiscal year
2012 that could potentially affect GAO’s information security program. To assess
GAO’s performance for these areas, we analyzed the agency’s information security
policies, procedures, and guidance; interviewed staff in GAO’s Information Systems
and Technology Services (ISTS) office; and obtained additional data and
documentation from them. In addition, we reviewed the security control
documentation for GAO systems using a risk-based approach. As part of our review
of Contingency Planning, we toured the Local Area Network Operations Center
(LOC), visually inspected electrical circuits, and physically traced power cords for
servers to check for power redundancy. Finally, we identified actions taken in
response to past FISMA recommendations and determined if any of these
recommendations can be closed.

We conducted this evaluation from December 2012 to February 2013 in accordance
with the Quality Standards for Inspection and Evaluation established by the Council
of the Inspectors General on Integrity and Efficiency, in January 2012. Those
standards require that we plan and perform the evaluation to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our evaluation objectives.

Background

To help protect against threats to federal systems, FISMA sets forth a
comprehensive framework for ensuring the effectiveness of information security
controls over information resources that support federal operations and assets. Its
framework creates a cycle of risk management activities necessary for an effective
security program. It is also intended to provide a mechanism for improved oversight


3
U.S. Department of Homeland Security, FY 2012 Inspector General Federal Information Security
Management Act Reporting Metrics, (March 6, 2012).




Page 2                                                    OIG-13-2 Information Security
of federal agency information security programs. In order to ensure the
implementation of this framework, FISMA assigns specific responsibilities to OMB,
agency heads, chief information officers (CIO), inspectors general, and NIST. OMB
is tasked with developing and overseeing the implementation of policies, principles,
standards, and guidelines on information security; reporting at least annually on
agency compliance with the act; and approving or disapproving agency information
security programs. Agency heads are tasked with providing information security
protections commensurate with the risk and magnitude of the harm resulting from
unauthorized access, use, disclosure, disruption, modification, or destruction of
information collected or maintained by or on behalf of the agency. Agency heads
and CIO are tasked with developing, documenting, and implementing agency-wide
information security programs. Inspectors general are tasked with conducting annual
independent evaluations of agency efforts to effectively implement information
security. NIST is tasked with providing standards and guidance to agencies on
information security.

Changes to GAO Control Environment during Fiscal Year 2012

ISTS did not retire any existing FISMA systems or add any new FISMA systems in
fiscal year 2012. Therefore, the GAO FISMA inventory remained unchanged from
fiscal year 2011. During fiscal year 2012, ISTS implemented software upgrades
including Microsoft Office 2007 and Oracle 11G. We reviewed configuration
management documentation and verified that these changes were authorized and
approved.

Improvements Needed to Fully Implement Security Program

GAO has established an information security program that is generally consistent
with federal requirements, guidance, and standards. Of particular note in fiscal year
2012, ISTS updated procedures for managing and tracking annual security
awareness training and role-based training to more accurately report compliance
and ensure accountability for the required training. The recently developed
Mandatory Training Portal allows ISTS managers to track who has completed
information security awareness and role-based training. It also allows portal
administrators to send automated e-mail notifications to those who have not yet
satisfied the requirement. GAO reported that awareness training compliance was at
99 percent and the role-based training compliance was at 98 percent.

GAO also has well-defined operational 4 and technical 5 controls for Remote Access
Management. For example, GAO has a published telecommuting policy that requires


4
 Operational controls are safeguards or countermeasures for an information system that are primarily
implemented and executed by people (as opposed to systems).
5
 Technical controls are safeguards or countermeasures for an information system that are primarily
implemented and executed by the information system through mechanisms contained in the
hardware, software, or firmware components of the system.




Page 3                                                      OIG-13-2 Information Security
users to sign rules of behavior and user agreements that acknowledge their
responsibility and accountability. GAO also has a process for reporting and disabling
lost or stolen devices to prevent unauthorized access. We reviewed documentation
from an actual lost property incident and verified that ISTS personnel followed these
procedures.

However, information security threats change almost daily, requiring constant
diligence and oversight to mitigate possible impact on information availability,
integrity, and continuity. In evaluating elements of this program based on the DHS
reporting metrics for Inspectors General (IG), we identified specific improvements
needed to help ensure that security requirements are fully implemented. Evaluation
results for these program elements are as follows.

Limitations Exist in GAO Information Technology Contingency Planning

GAO maintains an overall continuity program, which among other things, provides
for the health and safety of GAO employees, contractors, and visitors, and ensures
GAO will be able to maintain its operational capability in the event of a disaster or
disruption. As a key element of this program, ISTS maintains a contingency plan that
identifies and centralizes processes necessary to recover GAO Network services
following a disruption that significantly degrades or disrupts network use. 6 Further,
ISTS maintains detailed procedures for specific events, such as planned 7 and
unscheduled power outages. 8

These plans and procedures cover the GAO Network and all major applications
(systems) located in the LOC at GAO Headquarters, and activating the plan may
involve relocation of network operations to GAO’s Alternate Computing Facility
(ACF) located outside of Washington, D.C. However, as reported in the fiscal year
2011 evaluation, the ACF currently provides only limited disaster recovery
capabilities and will require additional funding and executive support to build out the
ACF infrastructure required to fully support GAO’s mission-essential functions,
should network operations become dependent on this facility. 9

The ACF is equipped with servers to run a portion of applications to support mission-
essential functions including the Document Management/Electronic Records
Management System (DM/ERMS), General Counsel’s case tracking system (GC
Track), the Congressional Contact System, and My Locator. However, it is important
to note that the data on these servers are not updated in real-time and in the event
of an emergency, any changes made since the most recent update could be lost.


6
 GAO Network IT Contingency Plan, version 6.0 (August 2012).
7
 Power Outage/Testing Checklist, Version 1.1 (March 10, 2011).
8
 Checklist Emergency LOC Shutdown
9
 Mission Essential Functions (MEFs) are defined as a limited set of department- and agency-level
government functions that must be continued after a disruption of normal activities.




Page 4                                                      OIG-13-2 Information Security
Based on current procedures that include nightly incremental backup of data, 10 up to
24-hours’ worth of data could be lost in an emergency.

In addition, although the ACF can provide “go-forward” e-mail services (no historical
e-mail), ISTS does not yet have processes to migrate e-mails created through ACF
operations back into LOC e-mail servers, should normal operations resume. This
means that during a disaster or disruption, GAO personnel would not be able to
access e-mails sent or received before the event. Further, once the event is over,
any e-mails sent or received during the disruption may no longer be accessible. This
could seriously impair communication with key stakeholders, including congressional
staff and agency officials.

Other essential applications do not currently have servers at the ACF. These
applications include the Asset Manager, the webTA System, the Job Information
System, and the Engagement Results Phase. As a result, equipment would need to
be procured or transferred to the ACF before any data could be loaded and restored.
This would likely cause significant delays in recovering IT operations after an
emergency.

In the event of a power outage or similar disruption, ISTS personnel would have
approximately 15-20 minutes of emergency battery power to gracefully shut down
approximately 300 servers in the GAO Headquarters LOC. According to ISTS
personnel, the majority of federal agencies and private companies rely on a
generator to extend that timeframe. This is consistent with NIST guidance that states
organizations should provide a long-term alternate power supply for information
systems that is capable of maintaining minimally-required operational capability in
the event of an extended loss of the primary power source. ISTS personnel
estimated that the cost for a generator was $2 million and deemed it to be cost-
prohibitive. As a result, data on any server that is not shut down gracefully (i.e.,
employing log-off procedures that often require several minutes or more) is at risk of
loss or corruption. That risk is significantly greater on evenings and weekends when
the amount of ISTS staff physically on site is minimal.

We also noted that power circuits in the LOC are not redundant, which is not
consistent with NIST guidance and industry best practices. For example, rows of
servers are connected to a single Power Distribution Unit (PDU). 11 If the transformer
within that PDU were to fail, the entire row of servers would lose power. Similarly, we
observed that servers were plugged into the same circuit from a single PDU. If that
circuit breaker were to trip or fail, those servers would lose power. To maintain



10
  An incremental backup captures files that were created or changed since the last backup.
Incremental backups afford more efficient use of storage media, and backup times are reduced.
11
  A PDU is a device designed to transform raw power feeds into lower capacity power feeds and
distribute that electricity to racks of computers and networking equipment located within the data
center.




Page 5                                                        OIG-13-2 Information Security
power redundancy, servers must be plugged into separate, independent power
circuits.

Finally, ISTS informed us that they have not briefed members of the GAO Executive
Committee on the specific risks posed by a power outage or similar disruption. We
believe such briefings are an essential step in the Contingency Planning process.

Resource Challenges Exist in GAO’s Information Security Program

Resource challenges in the Information Systems Security Group adversely impact
GAO’s ability to implement necessary upgrades identified by GAO managers and
our prior work. For example, one area particularly affected is ISTS’s ability to
segregate responsibilities. Through interviews with ISTS personnel, we learned that
staff have collateral duties that often pose competing priorities. For example, the
Information System Security Officer (ISSO) is primarily responsible for ensuring
implementation of system-level security controls and maintaining system
documentation. However, the ISSO has also been assigned responsibility for audits
and compliance. Similarly, engineering staff periodically have to perform monitoring
duties or monitoring staff have to perform engineering duties. Further, the director
frequently performs operational duties that take time away from management and
strategic activities.

During our fiscal year 2011 evaluation, ISTS sometimes attributed competing
resource needs as a cause for delayed correction of information security weakness.
OMB and NIST guidance requires agencies to identify vulnerabilities, establish
priorities, and assign staffing or financial resources required to resolve a weakness.
We believe that estimating the resources needed to correct a weakness could aid in
managing the overall remediation process.

Status of Prior Recommendations

During fiscal year 2012, to implement recommendations made in our FISMA
evaluation for fiscal year 2011, ISTS took the following actions:
 •   Integrated an enterprise risk management program into its Information
     Technology Investment Committee governance and oversight process.
 •   Updated GAO’s procedures for managing and tracking annual security
     awareness training and role based training to accurately report training
     compliance.
 •   Briefed senior management on the current ACF capabilities and a strategy for
     contingency operations at that site.

During fiscal year 2012, ISTS continued efforts to implement the one remaining 2011
FISMA recommendation that the CIO establish monitoring procedures that enhance
accountability for, and management of, GAO’s information security weakness
remediation process by:



Page 6                                              OIG-13-2 Information Security
 •   Ensuring that business and system owners provide, and the Information
     Systems Security Group incorporates into the POA&M, timely updates that
     include current estimated completion dates for all open or delayed
     weaknesses; and
 •   Reconsidering the need to identify resources required to resolve a weakness,
     including funding or other nonfunding obstacles or challenges, such as staffing,
     that may adversely affect its remediation.

In addition, GAO continued efforts to implement the fiscal year 2009 FISMA
recommendations to (1) develop policies and procedures that would meet the intent
of a breach notification policy and plan as prescribed by OMB, and (2) establish a
program to provide both initial and annual refresher privacy training to GAO’s
employees and managers. Implementing these two recommendations is dependent
on finalizing a GAO security incident response directive and a GAO privacy rule and
order, respectively. We commented on draft versions of these documents. However,
as of February 7, 2013, these documents were not final.

Conclusions

Our prior year evaluations have shown that GAO has established an information
security program that is generally consistent with federal requirements, guidance,
and standards. Our fiscal year 2012 limited review reinforced our prior conclusion
and identified areas for improvement in the contingency planning process. We also
identified resource challenges that affect GAO’s ability to implement security
upgrades and strategies identified by GAO managers and the OIG.

It is essential to ongoing program effectiveness that GAO continually assess
whether established processes and practices are operating as intended and make
certain that changes in federal security requirements, guidance, and techniques are
proactively incorporated into a formal, well-documented program. In addition, senior
management involvement in determining how the organization assesses and
mitigates information-system-related security risks will help to strengthen the
agency’s overall information security program.

Recommendations for Executive Action

To help strengthen GAO’s overall information security program, we recommend that
the CIO take the following two actions:
 •   Implement measures to increase the redundancy and availability of GAO
     mission-essential applications.
 •   Develop and provide, for GAO senior management consideration, a proposed
     strategy to ensure power redundancy to GAO servers and provide a long-term
     alternate power supply in the event of a power outage.




Page 7                                             OIG-13-2 Information Security
Agency Comments and Our Evaluation

The Inspector General provided GAO with a draft of this report for review and
comment. (See attachment II.) GAO concurred with our recommendations. The
agency also provided technical comments that we incorporated, as appropriate.

Actions taken in response to our recommendations are expected to be reported to
my office within 60 days.

We are sending copies of this report to the other members of GAO’s Executive
Committee (Chief Operating Officer, Chief Administrative Officer/Chief Financial
Officer, and General Counsel), GAO’s Audit Advisory Committee, and other key
managers. The report is also available on the GAO website at
http://www.gao.gov/about/workforce/ig.html.

If you or your staff have any questions about this report, please contact me at
(202) 512-5748 or trzeciaka@gao.gov. Contact points for GAO’s Office of
Congressional Relations and Public Affairs may be found on the last page of this
report. Key contributors to this report were Douglas Carney and Cathy Helm,
Deputy Inspector General.




Page 8                                             OIG-13-2 Information Security
Attachment I

The following are the Department of Homeland Security’s eighteen new fiscal year
2012 FISMA metrics for reporting by executive agency Inspectors General. 12

 2. CONFIGURATION MANAGEMENT
 2.1.8. Software assessing (scanning) capabilities are fully implemented.
 2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated in a
         timely manner, as specified in Organization policy or standards.
 2.1.10. Patch management process is fully developed, as specified in Organization policy or
         standards.
 3. IDENTITY AND ACCESS MANAGEMENT
 3.1.5. Organization has adequately planned for implementation of PIV for logical access in
        accordance with government policies.
 3.1.8. Identifies all User and Non-User Accounts (refers to user accounts that are on a system.
        Examples of non-user accounts are accounts such as an IP that is set up for printing. Data
        user accounts are created to pull generic information from a database or a guest/anonymous
        account for generic login purposes that are not associated with a single user or a specific
        group of users)
 4. INCIDENT RESPONSE AND REPORTING
 4.1.8. There is sufficient incident monitoring and detection coverage in accordance with government
         policies.
 5. RISK MANAGEMENT
 5.1.15. Security authorization package contains Accreditation boundaries for Organization
         information systems defined in accordance with government policies.
 6. SECURITY TRAINING
 6.1.6. Training material for security awareness training does not contain appropriate content for the
        Organization.
 7. PLAN OF ACTION & MILESTONES (POA&M)
 7.1.7. Costs associated with remediating weaknesses are identified.
 8. REMOTE ACCESS MANAGEMENT
 8.1.4. Telecommuting policy is fully developed.
 8.1.9. Lost or stolen devices are disabled and appropriately reported.
 8.1.10. Remote access rules of behavior are adequate in accordance with government policies.
 8.1.11. Remote access user agreements are adequate in accordance with government policies.
 9. CONTINGENCY PLANNING
 9.1.8. After-action report that addresses issues identified during contingency/disaster recovery
         exercises.
 9.1.9. Systems that have alternate processing sites.
 9.1.10. Alternate processing sites are subject to the same risks as primary sites.
 9.1.11. Backups of information that are performed in a timely manner.
 9.1.12. Contingency planning that consider supply chain threats.



12
 U.S. Department of Homeland Security, FY 2012 Inspector General Federal Information Security
Management Act Reporting Metrics, (March 6, 2012).




Page 9                                                       OIG-13-2 Information Security
Attachment II




Page 10         OIG-13-2 Information Security
(999827)



Page 11    OIG-13-2 Information Security
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
